Audit of NARA’s Data Backup Operations



      OIG Audit Report No. 13-09



             July 9, 2013

Table of Contents



Executive Summary ........................................................................................ 3


Background ..................................................................................................... 4


Objectives, Scope, Methodology .................................................................... 6


Audit Results................................................................................................... 8


Appendix A – Acronyms and Abbreviations ............................................... 24


Appendix B - Management’s Response to the Report ................................. 25


Appendix C - Report Distribution List ......................................................... 26

                                                             OIG Audit Report No. 13-09


Executive Summary

Organizations should routinely duplicate or back up data files, computer programs, and
critical documents. This assists in the organization’s ability to ensure uninterrupted
operations by providing reasonable and timely data recovery capabilities. Our objective
was to determine whether NARA had a systematic, accountable, and documented process
for restoring original data after a data loss event. Specifically, our review focused on
whether NARA had documented plans and procedures for backing up data, whether
backups were occurring on a regular basis, whether backups were tested to verify media
reliability and information integrity, and whether the backup copies of the operating
system and other critical information system software were stored in a separate facility
from the operational software.

Overall, with the exception of the ERA, successful backups were accomplished on a
regular basis for the systems reviewed. A full backup for one instance of the ERA
system has not been accomplished since May 2011. In addition, security control
weaknesses existed within NARA’s data backup operations which jeopardize NARA’s
ability to sufficiently protect the confidentiality, integrity, and availability of data
backups. For example, backup tapes containing Personally Identifiable Information (PII)
were not encrypted to protect the information while stored offsite; backups were not
regularly tested to ensure data could be restored in usable form; and backup media was
not rotated offsite each week as prescribed. Without information system backup controls
to protect data backups, there is an increased risk recovery operations could be delayed or
information could be lost.

The audit also identified an opportunity for cost savings related to excess Iron Mountain
storage containers in NARA’s possession. Over the last seven years, NARA has spent
about $31,900 that could have been put to better use. NARA decreased the number of
tapes and other storage media stored offsite but did not return the excess containers to
Iron Mountain. By reviewing and reducing the number of containers kept in the rotation
for offsite storage, NARA could significantly reduce the cost of this service.

Payments made for offsite storage of backup tapes need further review to determine
whether NARA’s procurement process as well as Federal laws and regulations were
violated. In addition, the payment for offsite storage costs may have been improper, and
if so, NARA has paid approximately $48,712 over the last four years that could have
been put to better use.

This report makes 11 recommendations to strengthen the management, accountability,
and oversight of the data backup and recovery processes at NARA.
                                         Page 3
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-09


Background

Information systems are vital elements in most mission/business processes. Because
information system resources are so essential to an organization’s success, it is critical
that identified services provided by these systems are able to operate effectively without
excessive interruption. Contingency planning supports this requirement by establishing
thorough plans, procedures, and technical measures enabling a system to be recovered as
quickly and effectively as possible following a service disruption. Contingency planning
is unique to each system, providing preventive measures, recovery strategies, and
technical considerations appropriate to the system’s information confidentiality, integrity,
and availability requirements and the system impact level.

Organizations are required to adequately mitigate the risk arising from the use of
information and information systems in the execution of mission and business processes.
Contingency strategies are created to mitigate the risks for the contingency planning
family of controls and cover the full range of backup, recovery, contingency planning,
testing, and ongoing maintenance. National Institute of Standards and Technology
(NIST) Special Publication (SP) 800-53, Revision 4, “Security and Privacy Controls for
Federal Information Systems and Organizations,” April 2013, contains the baseline set of
controls that protect the confidentiality, integrity, and availability of a system and its
information. Within SP 800-53, Contingency Planning Control 9 (CP-9) requires
organizations to conduct backups of user-level and system-level data and to protect the
confidentiality, integrity, and availability of backup information at the storage location.

Information system backups at NARA are managed by contractors. The NARA IT and
Telecommunications Support Services (NITTSS) contractor is responsible for multiple
systems running Novell SUSE Linux Enterprise Server (SLES), Microsoft Windows,
UNIX, and Novell Netware. NARA Network (NARANet) systems data are backed up on
a varied rotation of full and incremental backups which is not identical for all systems.
The backup method, retention and destination of data backups are also different for each
system. For example, Novell file and print servers are backed up at NARA’s College
Park, MD facility (AII) and replicated to NARA’s facility at the Allegany Ballistic
Laboratory (ABL), then transferred to tape. Novell Groupwise backups are replicated to
ABL then to tape. Windows and UNIX servers are backed up using an Enterprise backup
system at AII or locally attached media drives.

This audit also included a review of two systems, the Electronic Records Archives (ERA)
and the Case Management and Reporting System (CMRS). The purpose of ERA is to
preserve and manage NARA’s electronic records and manage the lifecycle of paper

                                         Page 4
                      National Archives and Records Administration
                                                               OIG Audit Report No. 13-09


records and other holdings, including supporting records retention schedules and the
accessioning process for all Federal records. In September 2011, NARA awarded an
Operations and Maintenance contract for continued support of ERA. According to the
contract Performance Work Statement (PWS), the contractor is required to perform
backup of ERA systems and devices with the intent of having recoverable systems, data
and services. Server backups were to include daily server file system backups, and the
contractor is required to verify successful completion of all backups.

CMRS automates the end-to-end case processing for military records. CMRS assists in
locating the record, assigning requests to staff, preparing the response to the customers,
electronically referring requests to other offices, and advising the customer of the status
of their request. The users of CMRS are entirely dependent upon the system to do their
work. In September 2012, NARA issued a one year contract for the operations and
maintenance of the NARA Integrated Siebel Platform (NISP) which covers several
NARA systems, including CMRS. According to the contract, the contractor was to
perform daily incremental backups and weekly full backups of the NISP database and
system servers.

NITTSS, ERA, and CMRS contractors used NetBackup software to manage the system
backups. NetBackup allows periodic or calendar-based schedules to perform automatic,
unattended backups for clients across a network. The backups can be full or incremental.
Full backups back up all client files. Incremental backups back up only the files that
have changed since the last backup.




                                         Page 5
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-09


Objectives, Scope, Methodology

The purpose of this audit was to determine whether NARA had a systematic,
accountable, and documented process for restoring original data after a data loss event.
Specifically, we reviewed whether NARA had documented plans and procedures for
backing up data; whether successful backups were accomplished on a regular basis;
whether backups were tested to verify media reliability and information integrity; and
whether backup copies of the operating system and other critical information system
software were stored in a separate facility or in a fire-rated container which was not
collocated with the operational software.

To accomplish our objective, we reviewed NARA’s IT Security Policies and IT Security
Requirements as well as National Institute of Standards and Technology (NIST) Special
Publications (SP) 800-53, Revision 3 “Recommended Security Controls for Federal
Information Systems and Organizations,” May 2010, 800-53, Revision 4 “Security and
Privacy Controls for Federal Information Systems and Organizations,” April 2013, and
800-34, Revision 1, “Contingency Planning Guide for Federal Information Systems,”
May 2010. We obtained and reviewed backup and recovery procedures from NITTSS
and the ERA contractors. We were unable to review any backup procedures for CMRS
because at the time of our audit, procedures did not exist.

We interviewed NARA IT Operations personnel as well as the contractors responsible for
conducting data backups for selected NARA systems, including NARA’s NITTSS
contractor which included backups of email servers, Novell file servers, and other
application and support servers residing on NARANet. We also reviewed backups for
two systems: the Electronic Records Archives (ERA) and the Case Management and
Reporting System (CMRS).

We reviewed backup schedules for selected servers and compared the schedule with the
backup system job history log files for incremental and full backups. For backup media
stored offsite, we reviewed whether backup files were created and rotated offsite as
prescribed. We reviewed the security controls in place to protect backups at the storage
locations. For backups stored on tapes, we reviewed the inventory and tape log
information at the storage locations and reviewed the process to destroy backup tapes
when no longer needed. We conducted a site visit at the Iron Mountain offsite storage
location for backup tapes and compared the contents of each NARA container stored in
the vault to NARA’s records.


                                        Page 6
                     National Archives and Records Administration
                                                                       OIG Audit Report No. 13-09


Our audit work was performed at Archives II in College Park, Maryland, Allegany
Ballistics Laboratory in Rocket Center, West Virginia, and the Iron Mountain storage
facility in Columbia, Maryland between October 2012 1 and May 2013. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




1
 This audit was originally announced in May 2011 but was put on hold due to staffing constraints and
competing priorities. In October 2012, the audit was re-announced with the same audit objective.
                                            Page 7
                         National Archives and Records Administration
                                                             OIG Audit Report No. 13-09


Audit Results

1. Controls Over Data Backups.
Overall, with the exception of the ERA, successful backups were accomplished on a
regular basis for the systems reviewed. A full backup for one instance of the ERA
system has not been accomplished since May 2011. In addition, security control
weaknesses existed within NARA’s data backup operations which jeopardize NARA’s
ability to sufficiently protect the confidentiality, integrity, and availability of data
backups. For example:
   •	   backup tapes containing sensitive PII were not encrypted to protect the

        confidentiality of the information while stored offsite;

   •	   a method or process to verify the integrity of the backups was not in place;
   •	   backups were not regularly tested to ensure data could be recovered in usable
        form;
   •	   backup media was not rotated offsite as prescribed; and
   •	   one offsite storage location for backup tapes was not geographically removed
        from the primary site which may create accessibility problems in the event of an
        area-wide disaster.
This occurred because NARA did not fully implement the contingency planning control
related to information system backup, which is designed to provide a means to recover
data needed to restore system operations quickly and effectively following a service
disruption. In addition, plans and procedures for data backup and recovery operations did
not exist for one system we reviewed. Without information system backup controls to
protect data backups, there is an increased risk recovery operations could be delayed or
information could be lost.

According to NIST SP 800-34, data backups are done primarily for recovery purposes,
and should be conducted on all systems on a regular basis. At NARA, support
contractors manage system backups. We reviewed the backup operations performed by
NARA’s Operations Support contractor, NITTSS, which includes NARANet Novell,
Windows, and UNIX servers. In addition, we also reviewed backup operations
performed for ERA and CMRS, which are maintained by different support contractors.

We reviewed a sample of backups conducted by the three different support contractors
and found that overall, system backups were accomplished on a regular basis. Two
exceptions occurred for backups of ERA. Backups for the Executive Office of the


                                        Page 8
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 13-09


President (EOP) instance 2 of ERA are scheduled to be run once every eight weeks.
However, the last successful backup for the EOP ERA instance occurred in May 2011. 3
Although data is static within the system, there have been several data spillage 4 incidents
since the last backup was run which would delay restoration efforts. In addition, the EOP
operating system has been upgraded twice since the last set of backups which would
further delay restoration efforts. Although an exact amount of time is not known, one
official estimated it could take six months to restore the EOP system from the May 2011
set of backup tapes. This amount of time to restore a backup may not be acceptable to
respond to all special access requests, subpoenas made pursuant to the Presidential
Records Act by investigative bodies or other requesting parties for documents or
information.

According to one ERA official, the decision was made not to create a backup of the
system until equipment upgrades and data migration were completed. Specifically, new
equipment was installed and data in the current EOP instance will be migrated to the new
equipment. Transfer of the data will most likely take several months. Once the transfer
is complete, the old equipment will be decommissioned. The ERA official stated a
backup was not made before starting the transfer because backup tapes made with the
current system would not be readable on the new equipment.

We identified another exception for backups of the ERA Base instance, which contains
permanent electronic Federal records. ERA backups take point-in-time images
(snapshots) of the data being backed up at scheduled intervals throughout the day. The
snapshot image of the data at midnight is written to tape and transferred offsite the next
day. However, for approximately two weeks, the ERA Base instance did not have a
successful backup. System administrators were alerted to problems with backups of the
ERA Base system in November 2012 and a work around was used to continue to generate
offsite tapes. In January 2013, the tape library was upgraded and backups would not run
properly. After two weeks of trouble shooting different hardware and backup software
configurations, backups resumed but ERA officials are continuing to experience
problems related to the encryption of the backups. As of May 2013, ERA officials have
not been able to encrypt backups and therefore, backup tapes are not being rotated offsite
each day. Instead, according to an ERA official, ERA backups are sent by secure courier
about once a month. Until sent offsite, the backup tapes are stored in the data center and

2
  ERA is composed of several “instances” which each focus on a set of records or ERA function. The EOP

instance contains the electronic records from the George W. Bush Administration.

3
  According to the ERA Operations manager, EOP backups were not completed because the system was in

the process of being upgraded. 

4
  A data spill is a security incident that results in the transfer of classified or sensitive information to

unaccredited and unauthorized information systems, applications or media. In order to restore the entire 

EOP instance from backup, each of the files containing classified information would have to be identified,

and deleted, from the May 2011 set of backup tapes.

                                             Page 9
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 13-09


although there are fire-rated containers onsite, the containers are not large enough to hold
the backup tapes for the Base instance.

Confidentiality of Backup Data

Data confidentiality involves protecting data both onsite and offsite from unauthorized
access or use. Maintaining the security of system data and software is a key component
in contingency planning. Encryption is a common method for securing stored system
data. Encryption is most effective when applied to both the primary data storage device
and on backup media going to an offsite location.

CMRS is a web based application which enables the request and fulfillment of military
service information, such as personnel records and medical case files pertaining to 20th­
century military veterans. Information stored within CMRS includes the veteran’s name,
social security number, and date of birth; therefore it is identified as having a high
confidentiality level. Unencrypted backup tapes containing this sensitive information
were routinely sent to NARA’s offsite storage vendor, Iron Mountain. The tapes were
stored in locked containers and the offsite facility had physical security controls in place
to restrict access to the vault where the tapes are stored. However, during the site visit to
Iron Mountain, it was discovered Iron Mountain personnel had copies of the keys to
unlock NARA’s containers.

Office of Management and Budget Memorandum 06-16, “Protection of Sensitive Agency
Information,” June 23, 2006, included specific actions agencies were to take to properly
safeguard PII when physically transported outside the agency’s secured, physical
perimeter. For example, in those instances where PII is transported to a remote site or
stored at a remote site, agencies were to implement NIST SP 800-53 security controls
ensuring information is transported or stored only in encrypted form. NARA 1608,
“Protection of Personally Identifiable Information,” August 6, 2009, also requires PII
data transported on removable media to be encrypted unless encryption will impact the
integrity of the data. In those instances, appropriate access controls, strong authentication
procedures, or other security controls commensurate with the sensitivity of the PII data
must be used.

In February 2013, NARA officials responded to a potential PII concern regarding backup
media at one of NARA’s St. Louis facilities. Three boxes of backup tapes, CDs, floppy
discs, a Compact Flash card, and related material were abandoned for about a month on
the loading dock at the St. Louis facility 5. The backup media included CMRS backups

5
 According to NARA officials, the date of this incident closely corresponds to the period during which St.
Louis NITTSS staff were completing their final pack up of IT and communication hardware at the old Page
Ave facility.
                                            Page 10
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 13-09


which contain sensitive PII about veterans. Even though data stored on the backup media
is not manually readable, compatible tape backup hardware and software are still
generally available and could be attached to a server or workstation if an individual was
intent on reading the tape cartridges. NARA officials determined information was not
compromised in this instance since the loading dock is a secure area. However, if NARA
encrypted the backup tapes, the probability of unauthorized disclosure of PII would be
reduced in the event tapes were lost or stolen.

The Terms and Conditions listed in the Performance Work Statement for the CMRS
support contract state removable media, such as hard drives, flash drives, devices with
flash memory, CDs and floppy disks containing sensitive PII shall not be removed from a
Government facility unless they are encrypted using a NIST FIPS 140-2 or successor
approved product. According to the CMRS contractor responsible for backups, it would
not be possible to encrypt the backups because encryption would significantly increase
the processing times needed to run backups. The CIO should determine whether
hardware or software encryption can be used to protect CMRS backup tapes that are
currently transported and stored offsite or devise another method of protecting the data
that provides a similar level or security.

Integrity of Backup Data

It is important to ensure the data backup copies have the same content as the original data
file. One way to check the integrity of the backup data is to calculate a checksum 6 for
both the original and the backup copy and then compare. Another way to check the
integrity of the backup file is to periodically retrieve the backup file, open it on a separate
system, and compare the backup copy to the original file.

According to NIST SP 800-34, backup tapes should be tested regularly to ensure data is
being stored correctly and files may be retrieved without errors or lost data. Also, backup
tapes should be tested at the alternate site, if applicable, to ensure the site supports the
same backup configuration the organization has implemented. NARA does not regularly
perform tests to restore files stored on backup tapes. None of the three contractors
supporting NARA systems regularly tested backup tapes by trying to restore data. Two
contractors provided examples of file restores they had performed however, it was not
done on a regular basis and did not involve restoring data from backup tapes.

The NITTSS contract requires the contractor ensure, and demonstrate at NARA’s
request, that NARA IT systems are recoverable from backup tapes. NITTSS periodically

6
 A checksum is a small-size datum computed from an arbitrary block of digital data for the purpose of
detecting errors that may have been introduced during its transmission or storage. The integrity of the data
can be checked at any later time by recomputing the checksum and comparing it with the stored one. If the
checksums match, the data was likely not accidentally altered.
                                             Page 11
                          National Archives and Records Administration
                                                                            OIG Audit Report No. 13-09


performed file restores based on user requests. However, NARA cannot rely on this
process to ensure all system are recoverable from backup tapes since there is no
guarantee all systems would be tested. According to the IT Operations manager, she is
confident with the backup operations for Novell Groupwise because of all the restores
they have performed at user’s requests. However, for minor application systems she did
not have the same confidence level since those system backups may not be tested or
validated to ensure the backup was successful.

The ERA contract requires the contractor, on a scheduled basis, to have tested processes
and procedures for the recovery and reconstitution of ERA systems and services to the
state prior to the disruption or failure. According to an ERA System Administrator, he
was able to restore files using the Backup, Archives, and Restore functionality within the
backup software. The System Administrator stated there was not a process in place to
periodically test backups on a regular basis. He estimated the last data restore he
performed was for an audit last year.

The CMRS contract does not include a requirement for periodic testing of backup data.
According to the contractor, he performed file restores for two other systems he
maintains at NARA but has not had to perform any real-time data restores for CMRS.
According to the CMRS contractor, he tested the recovery of files every three months.
Documentation from the last restore in December 2012 consisted of an email from the
backup software stating the restore of a file onto a client directory had succeeded. The
contractor noted this testing was not required, but he would perform the tests to ensure
the backups were able to be restored.

For high impact systems 7 such as CMRS 8 and ERA, the annual contingency plan test
should include the use of a sample of backup information in the restoration of selected
information systems. Annual contingency plan testing at NARA did not include a test to
restore files from backups. A test of the contingency plan was not conducted for CMRS
during FY 2012 and the ERA contingency plan test involved only tabletop exercises.

The results of the ERA contingency plan test identified areas for improvement in ERA’s
ability to respond to an incident. For example, the summary of the test results identified
the lack of formalized Backup and Recovery testing and that currently there is no process
or method to verify NetApp snapshot backups are working. One recommendation made

7
  FIPS Publication 199 defines three levels of potential impact (low, medium, and high) on organizations or
individuals should there be a loss of confidentiality, integrity, or availability. The potential impact is
considered High if the loss of confidentiality, integrity, or availability could be expected to have a severe or
catastrophic adverse effect on organizational operations, organizational assets, or individuals.
8
  The CMRS Contingency Plan dated December 27, 2012 categorizes the system as a High impact for
confidentiality, integrity, and availability but the CMRS System Security Plan, dated July 23, 2012,
categorizes the system as Moderate impact.
                                             Page 12
                          National Archives and Records Administration
                                                              OIG Audit Report No. 13-09


in the test results was for subsequent exercises to focus on the restoration of systems.
NARA should regularly test data backups to ensure the information being backed up is
stored correctly and can be retrieved if needed.

Availability of Backup Data

Maintaining the availability of backup data is important to ensure access to the backup
information if needed. One way to protect the availability of backup data is to store the
backup copy offsite to prevent a disaster from destroying the original file and the backup
file. As shown in Table 1. below, NARA maintains three offsite storage locations.

                   Table 1. Offsite Storage Locations for Data Backups

       Offsite Storage Locations   Backup Media              Systems/Servers
       Iron Mountain,              LTO Tapes, DLT Tapes,     NITTSS Enterprise
       Columbia, MD                Compact Flash Cards       backups, CMRS
                                                             backups, and other
                                                             systems with locally
                                                             attached tape drives

       Allegany Ballistics         Mirrored/Replicated to    Novell file and print,
       Laboratory, Rocket          NetApp and then to tape   Novell Groupwise
       Center, WV
       Archives II,                LTO Tapes                 ERA
       College Park, MD

The NITTSS Tape Administrator was responsible for rotating backup media offsite to
Iron Mountain each week. The schedule with Iron Mountain was for pickup and delivery
of tapes to occur on Wednesdays. The NITTSS procedure specifies full backups are
stored onsite for one week and then sent offsite for eight weeks. The Tape Administrator
maintained a tape log documenting the backup tapes sent offsite, the date they were sent
offsite, and their return date. However, when we compared the NITTSS tape logs to the
Iron Mountain records; we found that while media was consistently returned by Iron
Mountain each Wednesday, media was not actually being sent to Iron Mountain each
week. Instead, during calendar year 2012, media was rotated offsite about once a month.
Therefore, NARA systems were at risk of losing up to four weeks of data if a disaster had
impacted the AII datacenter destroying the original system data and the backup tapes.
For some systems, such as CMRS, losing four weeks of data would be extremely
disruptive to the operations at the National Personnel Records Center and to military
veterans who had submitted record requests during that time. Table 2. shows the dates
backups were transferred to Iron Mountain during 2012.



                                         Page 13
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-09



               Table 2. Number of Containers Sent to Iron Mountain 

                              Each Week in 2012


                              Number of                       Number of
                    Date      Containers            Date      Containers
                   1/4/12       None               7/4/12       None
                  1/11/12       None              7/11/12       None
                  1/18/12         5               7/18/12       None
                  1/25/12       None              7/25/12       None
                   2/1/12       None               8/1/12         5
                   2/8/12       None               8/8/12       None
                  2/15/12         4               8/15/12       None
                  2/22/12       None              8/22/12       None
                  2/29/12       None              8/29/12         2
                   3/7/12       None               9/5/12         2
                  3/14/12         5               9/12/12       None
                  3/21/12       None              9/19/12       None
                  3/28/12       None              9/26/12       None
                   4/4/12       None              10/3/12         4
                  4/11/12         4              10/10/12       None
                  4/18/12       None             10/17/12         5
                  4/25/12       None             10/24/12       None
                   5/2/12       None             10/31/12       None
                   5/9/12         4               11/7/12       None
                  5/16/12       None             11/14/12       None
                  5/23/12       None             11/21/12         4
                  5/30/12       None             11/28/12       None
                   6/6/12         4               12/5/12       None
                  6/13/12       None             12/12/12         4
                  6/20/12       None             12/19/12       None
                  6/27/12         4              12/26/12       None


According to the Tape Administrator, tapes did not always get to him in time to be
included in the weekly shipment so he would delay sending that week’s container offsite
until he received the backup tapes scheduled to be in the shipment. However, we noted
that even when containers were not sent offsite for several weeks, those containers did
not include backup tapes for every system. The NARA Technical Monitor responsible
for overseeing this area of the NITTSS contract was not aware backup tapes were not
being sent offsite each week. Additional oversight processes should be implemented to
ensure backups are sent offsite each week as scheduled.

The OIG and the NITTSS Technical Monitor visited the Iron Mountain offsite storage
location in January 2013 to review the contents of each container currently stored there
and compare the contents of the containers with the Tape Administrator’s tape log. Of

                                        Page 14
                     National Archives and Records Administration
                                                                          OIG Audit Report No. 13-09


the seven containers 9 we reviewed, four of the containers matched the Tape
Administrator’s log. The remaining three containers either had tapes included in the
container not recorded on the log or the container did not include all the tapes shown on
the log. As shown in Table 3 below, none of the seven containers included a complete
set of backup tapes.

           Table 3. Inventory of Offsite Storage Containers at Iron Mountain

         System:             28-Nov 5-Dec 12-Dec 19-Dec 26-Dec 2-Jan 9-Jan
         OFAS                   2     2     2       -      -     -     -
         CMTS                   -      -     -      -      1     -     -
         VISTA                  -      -     -      -      1     -     -
         RCPBS                  2     4      -      -      -     2     2
         APS                    1     1     1       -      1     -     -
         AERIC                  1      -     -      -      1     -     1
         A1-PBX                 1     1     1       1      -     1     1
         A2-PBX                 1     1     1       1      -     -     1
         VAULT                  -     5     4       6      4     -     -
         NISP                   6     7     6       8      6     3     5
         Total Sent Offsite:   14     21    15     16     14     6    10

We contacted the Order Fulfillment and Accounting System (OFAS) Project Manager to
ask why backup tapes were not included in the offsite containers between December 19,
2012 and January 9, 2013. According to the Project Manager, the system is managed by
their own contractor who backs up the tapes locally. The Project Manager stated backup
tapes were not sent offsite during that time period because the system had exceeded the
storage limit for the backup tapes and more backup tapes had to be ordered. The system
was being backed up onto two backup tapes. However, the system exceeded the storage
limit on those two tapes and a third tape was needed for each backup. Additional tapes
were ordered but backups could not resume until those tapes were received and placed
into the rotation.

The process of providing tapes to the Tape Administrator should be improved to prevent
lost or misplaced tapes. We found inconsistencies between the CMRS contractors tape
log used to record backup tapes given to the Tape Administrator each week for offsite
storage and the Tape Administrator’s log. According to the CMRS contractor, the
process for transferring tapes offsite was to place the backup tapes on the Tape
Administrator’s desk. During this process, the contractor stated that many times when
dropping off the weekly tapes, the tapes from the previous week’s backup were still on

9
  There were only seven containers at Iron Mountain the date of the site visit because our visit occurred on
a Wednesday therefore one of NARA’s containers was already out for delivery back to NARA.
                                             Page 15
                          National Archives and Records Administration
                                                               OIG Audit Report No. 13-09


the Tape Administrator’s desk. Because the containers were not rotated offsite each
week, tapes may have been mixed up or placed into the wrong containers. The NITTSS
Technical Monitor agreed additional oversight was needed over the process of sending
tapes offsite. NARA should ensure an accurate log or record of tapes going offsite is
maintained so the correct container can be recalled if needed.

Offsite Storage Location

According to NIST SP 800-34, it is good business practice to store backup data offsite.
Commercial data storage facilities are specially designed to archive media and protect
data from threatening elements. When selecting an offsite storage facility and vendor,
one of the criteria to be considered is the distance from the organization and the
probability of the storage site being affected by the same disaster as the organization’s
primary site.

One of NARA’s offsite locations for backup tapes is in Columbia, Maryland. This is the
offsite storage location for systems and servers located in the Archives II datacenter
which is approximately 15 miles from Columbia. Due to its close proximity, the offsite
facility could be affected by the same area-wide disasters such as hurricane, tornado, or
other severe weather. Although the offsite facility has environmental controls in place to
protect the backup tapes, access to the facility may not be possible to retrieve the backup
tapes. We attempted to find out why the Columbia facility was chosen as the location for
offsite backup tapes but the decision appears to have been made over 10 years ago and
several individuals we asked did not know the rationale behind the decision. NARA
should evaluate the risks involved with storing backup tapes in the same geographic area
as NARA’s main data center. One option for NARA to consider is whether backup tapes
could be stored at ABL, which is the NARA Continuity of Operations (COOP) site, or at
a storage facility closer to the COOP site.

Information System Backup Control

NARA did not fully implement the NIST SP 800-53 control for information system
backups. Specifically, NARA did not have controls in place to protect the
confidentiality, integrity, and availability of backup information and did not regularly test
backup information to verify media reliability and information integrity. Although
NARA’s IT Security Requirements include this control, it was not being enforced. In
addition, NARA did not have mechanisms in place to ensure this control was working.

Organizations are required to adequately mitigate the risk arising from the use of
information and information systems in the execution of mission and business processes.
Contingency strategies are created to mitigate the risks for the contingency planning
family of controls and cover the full range of backup, recovery, contingency planning,
                                          Page 16
                      National Archives and Records Administration
                                                                            OIG Audit Report No. 13-09


testing, and ongoing maintenance. NIST SP 800-53 Contingency Planning Control CP-9
Information System Backup requires organizations to conduct backups of user-level and
system-level data and to protect the confidentiality, integrity, and availability10 of backup
information at the storage location.

The supplemental guidance for control CP-9 clarifies system-level information includes,
for example, system-state information, operating system and application software, and
licenses. Digital signatures 11 and cryptographic hashes 12 are examples of mechanisms
that can be employed by organizations to protect the integrity of information system
backups. An organization assessment of risk guides the use of encryption for protecting
backup information.

NIST SP 800-53 also includes control enhancements for moderate and high baseline
systems. For example, those systems categorized as moderate and high-impact level are
required to test backup information at an organization-defined frequency to verify media
reliability and information integrity. Systems categorized as high-impact level also must:
     •	 use a sample of backup information in the restoration of selected information
        system functions as part of contingency plan testing;
     •	 store backup copies of the operating system and other critical information system
        software in a separate facility or in a fire-rated container that is not collocated
        with the operational system; and
     •	 transfer information system backup information to the alternate storage site at
        organization-defined time period and transfer rate. 13
Additional controls that can be implemented, but are not required, include: the
organization accomplishes information system backup by maintaining a redundant
secondary system, not collocated, that can be activated without loss of information or
disruption to the operation; and the organization enforces dual authorization for the
deletion or destruction of organization-defined backup information.




10
   NIST SP 800-53, Revision 4, issued April 2013, included a change to the CP-9.d control. Specifically,

CP-9.d was revised to require that organizations protect the availability of backup information at storage

locations in addition to the confidentiality and integrity.

11
   A digital signature is a mathematical scheme for demonstrating the authenticity of a digital message or

document. A valid digital signature gives a recipient reason to believe the message was not altered in

transit.

12
   A cryptographic hash function is an algorithm that takes an arbitrary block of data and returns a fixed-

size bit string, the cryptographic hash value, such that any accidental or intentional change to the data will 

(with very high probability) change the hash value.

13
   This is a new requirement for high-impact systems based on NIST SP 800-53, Revision 4.

                                             Page 17
                          National Archives and Records Administration
                                                             OIG Audit Report No. 13-09


Data Backup and Recovery Procedures

According to GAO, there are a number of steps an entity should take to prevent or
minimize the damage to automated operations occurring from unexpected events.
Implementing thorough backup procedures is generally an inexpensive way to prevent
relatively minor problems from becoming costly disasters. We reviewed the data backup
and recovery procedures provided by NITTSS for the systems they manage, and by the
ERA support contractor. These procedures included roles and responsibilities, the
frequency and scope of the backups and where the backups will be stored.

We were unable to review backup and recovery procedures for CMRS because the
contractor was in the process of drafting the data backup procedures based on the
redesign of the system. The CMRS Technical Monitor provided a copy of the CMRS
Contingency Plan which she believed gave an overview of the CMRS backup function.
Although the Contingency Plan did have an overview, it did not specify responsibility for
the backups or the minimum frequency and scope of the backups. Without thorough
backup and recovery procedures, NARA does not have a documented process for
restoring CMRS data after a data loss event.

Conclusion

Information systems are vital elements in most mission/business processes. Because
information system resources are so essential to an organization’s success, it is critical
that identified services provided by these systems are able to operate effectively without
excessive interruption. Contingency Planning supports this requirement by establishing
thorough plans, procedures, and technical measures that can enable a system to be
recovered as quickly and effectively as possible following a service disruption. The
adequate protection of the confidentiality, integrity, and availability of the backups is
important to ensure NARA information is not at risk of unauthorized disclosure and data
is able to be recovered in usable form if needed.

Recommendations

1. The CIO should create a full backup of the EOP instance of ERA as soon as the
upgrade and data migration is complete.

2. The CIO should encrypt backup tapes containing sensitive PII or devise another
method of protecting the data that provides a similar level of security.

3. The CIO should include the restoration of files from backups as part of the annual
contingency plan testing for at least high impact systems such as ERA and CMRS.

                                        Page 18
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-09


4. The CIO should develop a process to regularly test data backups to verify information
integrity.

5. The CIO should develop increased oversight procedures for the process of sending
backup media offsite to ensure media is rotated offsite as prescribed.

6. The CIO should evaluate the risks associated with storing backup tapes within the
same geographic area as AII and determine whether the current strategy is sufficient.

7. The CIO should create or update Backup and Recovery Plans and Procedures for the
Case Management and Reporting System.

Management Response

Management concurred with the recommendations.



2. Opportunities Exist to Reduce the Cost of Offsite Storage.
The audit identified cost savings related to excess Iron Mountain storage containers in
NARA’s possession. NARA has 90 Iron Mountain containers but only 17 of the
containers have been used in the last year, with some containers having not been used in
over seven years. This occurred because NARA’s requirements for offsite storage
changed but excess containers were not returned. In addition, the monthly invoices were
paid with the government credit card without a sufficient review. As a result, NARA has
spent about $31,900 over the last seven years that could have been put to better use.

Iron Mountain monthly invoices include two types of charges, transportation charges for
pickup and return of backup tapes and set fees for storage containers. According to the
invoices, NARA paid monthly charges for 90 storage containers. The Iron Mountain
monthly invoices are usually around $1,000 which includes on average $100 for
transportation charges and a recurring charge of $867 for the 90 containers (see Table 4).

                Table 4. Monthly Cost for Iron Mountain Containers

               Container Type         Quantity Unit Price Monthly Amount
        DLT Container (capacity = 20)   51       $8.48            $432.48
        DLT Container (capacity=10)      2        8.48              16.96
        Cartridge 3480 (capacity=40)     2       10.47              20.94
        IM Multi Media                  27        8.48             228.96
        Pendaflex                        8       20.95             167.60
        Total                                                     $866.94
                                        Page 19
                     National Archives and Records Administration
                                                            OIG Audit Report No. 13-09



We found that of the 90 containers assigned to NARA, only 17 containers had been used
in the last year. Some of the remaining containers had not been used in several years,
including one container NARA received in 2005 that had never been stored at Iron
Mountain. According to NARA’s Account Manager at Iron Mountain, the cost for the
container is the same whether the container is stored at Iron Mountain or at NARA. The
Account Manager stated if there are containers sitting at NARA not in use, Iron Mountain
can take them back. The Tape Administrator counted 48 containers located in the Tape
Storage Room at Archives II. These containers had old backup tapes stored in them that
were waiting to be disposed of. The Tape Administrator and the NITTSS Technical
Monitor were unsure of where the remaining storage containers were located. The
NITTSS Technical Monitor stated additional containers may be stored out at NARA field
offices.

We identified five containers stored at Iron Mountain with a permanent retention date. In
reviewing the contents of three of the permanent hold containers it was unclear as to
whether these containers continued to require storage at Iron Mountain indefinitely. For
example, one container held only one backup tape labeled with the year 2003. Another
container held old server backups that may have been from 2004.

NARA had excess Iron Mountain containers because NARA’s requirements for offsite
storage changed in the last couple of years, but containers were not returned to Iron
Mountain. For example, in March 2010, NARA transferred 31 containers offsite, sending
about six containers offsite each week. Currently, NARA sends only four or five
containers a month to Iron Mountain.

The review and approval process for payment of the Iron Mountain invoice did not
include a review of the containers assigned to NARA’s account. Iron Mountain invoices
were paid using the government credit card. The approval process for payment was to
create a Form 5007 Requisition based on the invoice which was given to an IT
Operations official to sign. According to the IT Operations official, as long as the
monthly charge remained consistent, she would approve the invoice for payment.
However, if there were additional transportation charges for an unscheduled delivery she
would discuss the extra charge with the Tape Administrator to find out why it was needed
before paying the invoice. This review was not sufficient to identify the unnecessary
costs NARA continues to pay for extra storage containers not in use.

Using the monthly fee for each of the storage containers and the number of months since
the container was last used, we calculated the approximate amount of funds put to better


                                        Page 20
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-09


use as $31,900. If NARA returns the excess containers to Iron Mountain it could save
approximately $708 each month, or $8,500 annually.

Recommendations

8. The CIO should review the current list of Iron Mountain containers assigned to NARA
and return those containers that are no longer needed.

9. The CIO should examine the contents of those containers marked as permanent and
determine whether permanent storage is still required.

Management Response

Management concurred with the recommendations.



3. 	Payment of Offsite Storage Costs Needs Further Review
During FY 2012, NARA paid $12,178 for offsite storage of backup tapes. We identified
three issues with the payment of offsite storage costs:

   1)	 the payment appears to be a split purchase;

   2)	 costs incurred for services in one fiscal year were paid for using funds from the
       following fiscal year; and

   3)	 payment for offsite storage costs may have been improper.

These issues occurred because NARA paid for these services with a government credit
card instead of going through the procurement process and awarding a contract for offsite
storage. In addition, based on the language in the NITTSS Request for Quote (RFQ) it
could be reasonably interpreted that NITTSS was responsible for offsite storage costs.
As a result, NARA’s procurement process as well as Federal laws and regulations may
have been violated. In addition, NARA has paid approximately $48,712 over the last
four years that could have been put to better use.

According to NARA’s Purchase Card Guide, split purchasing is the acquisition of a
requirement by dividing it into smaller components thereby avoiding the established FAR
and NARA procurement procedures for the elevated dollar thresholds. The Purchase
Card Guide defines two types of split purchases: breaking down a one-time requirement



                                        Page 21
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 13-09


with a value greater than the single purchase limit 14 so the acquisition can be made using
the purchase card; and using the purchase card to purchase a recurring requirement with a
fiscal year value greater than the single purchase limit. The cost for offsite storage
appears to meet the definition of a split purchase since the aggregate amount of this
recurring monthly requirement was $12,178 for FY 2012 which exceeded the single
purchase limit.

Although there are exceptions where this would be allowable, we were unable to find
documentation that a contract was in place and an exception had been granted to allow
payment of the contract to occur using the government credit card.

According to 31 United States Code (USC) 1502(a), the balance of an appropriation or
fund limited for obligation to a definite period is available only for payment of expenses
properly incurred during the period of availability or to complete contracts properly made
within that period of availability. Further, the appropriation or fund is not available for
expenditure for a period beyond the period otherwise authorized by law.

Iron Mountain invoices bill for the current month’s service and are due in full within 90
days of the invoice date. According to the credit card holder, she usually pays the bill in
the month it is due. For example, NARA received two invoices dated August 31, 2012
for costs incurred during August 2012. Although these costs were incurred during
FY 2012, the amount appeared on the December 3, 2012 credit card statement.
According to data from NARA’s financial system, part of the cost for services rendered
in August 2012 was paid for using FY 2013 appropriated funds 15. We identified six
months in which services from one fiscal year were paid for with funds from a different
fiscal year.

The RFQ for the NITTSS contract states that the contractor shall manage NARA’s off-
site media storage. In addition, the RFQ states “the contractor shall store all backup
media off-site, track all backup media, create off-site storage records and logs, and
provide the records and logs to the government.” Based on this language, it could be
reasonably interpreted that the NITTSS contractor was responsible for the cost of storing
backup tapes offsite. In FY 2012, NARA paid $12,178 for offsite storage costs. The
NITTSS contractor began their work at NARA on April 1, 2009, therefore, NITTSS may
have been responsible for offsite storage costs for the last four years. Using the cost paid
in FY 2012 as an estimate, we calculated the approximate amount of funds put to better
use as $48,712 over the last four years.

14
   The single purchase limit (also known as the micro-purchase limit) is a dollar amount of the procurement

authority delegated to the cardholder. The single purchase limit is $3,000.

15
   The costs for offsite storage are split between two different funds. For most of the months we reviewed,

67% of the cost was paid for with appropriated funds and 33% was paid for with revolving funds.

                                            Page 22
                         National Archives and Records Administration
                                                          OIG Audit Report No. 13-09


Recommendations

10. The CIO, the Director of Acquisition Services, and NARA’s Office of General
Counsel should review purchases made for offsite storage costs to determine whether
NARA’s procurement process and Federal appropriations laws were violated and if so,
take appropriate corrective action.

11. The CIO, the Director of Acquisition Services, and NARA’s Office of General
Counsel should review language in the NITTSS contract and determine whether
payments NARA made for offsite storage were proper, and what, if any, remedies are
available.

Management Response

Management concurred with the recommendations.




                                       Page 23
                    National Archives and Records Administration
                                                       OIG Audit Report No. 13-09


Appendix A – Acronyms and Abbreviations

ABL       Allegany Ballistics Laboratory
AII       Archives II
CIO       Chief Information Officer
CMRS      Case Management and Reporting System
COOP      Continuity of Operations Plan
EOP       Executive Office of the President
ERA       Electronic Records Archives
GAO       Government Accountability Office
IT        Information Technology
LTO       Linear Tape-Open
NARA      National Archives and Records Administration
NARANet   NARA Network
NISP      NARA Integrated Siebel Platform
NIST SP   National Institute of Standards and Technology Special Publication
NITTSS    NARA Information Technology and Telephone Support Services
OFAS      Order Fulfillment and Accounting System
PII       Personally Identifiable Information
PWS       Performance Work Statement
RFQ       Request for Quote
SLES      SUSE Linux Enterprise Server
USC       United States Code




                                   Page 24
                National Archives and Records Administration
                                                                                      OIG Audit Report No. 13-09 



Appendix B - Management’s Response to the Report





       NATIONAL
      ARCHIVES


                                      JUN 27 2m3
          Date:
          To:                     James Springs, Acting Inspector General
          From:                   David S. Ferriero, Archivist of the United States
          Subject:                OIG Revised Draft Audit 13-09, Audit of NARA's Data Backup Operations


     Thank you for the opportunity to provide comments on this draft report. We appreciate
     your willingness to meet and clarify language in the report.

     We concur with the eleven recommendations in this audit.

     If you have any questions or need additional information on these comments, please
     contact Mary Drak by phone at 301-837-1668 or via email at mary.drak@nara.gov.




     David S. Ferriero
     Archivist of the United States




      NATIONAL ARCII I V ES           and
      RECORDS ADM IN ISTRATION

         8601 ADF.II' H I ROAD
     COLLtGF. I'ARK. MD 20740· (>()()1
            wn· w. arch ;vcs .go l'




                                                Page 25

                             National Archives and Records Administration
                                                           OIG Audit Report No. 13-09


Appendix C - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Chief Operating Officer
General Counsel
Executive for Business Support Services
Executive for Information Services/Chief Information Officer
Performance and Accountability




                                       Page 26
                    National Archives and Records Administration
